DOb F 1325.8
   (8-89)
EFG (07-90)


United States Government                                                                      Department of Energy

Memorandum
            DATE:    November 20, 2003                                            Audit Report Number: OAS-L-04-05
    REPLY TO:        IG-30 (A03AL036)
     SUBJECT:        Audit of Controls Over Expenditures Within the Office of Secure Transportation
               TO:   Michael Kane, Associate Administrator for Management and Administration

                     INTRODUCTION AND OBJECTIVE

                     The National Nuclear Security Administration's (NNSA) Office of Secure Transportation
                     (OST) supports the Department of Energy's (Department) national security core programs
                     by safely and securely transporting nuclear weapons, special nuclear materials, and
                     components between Department facilities and Department of Defense destinations.
                     OST's primary field facility locations are the Transportation Safeguards Training Center
                     at Fort Chaffee, Arkansas, and its Federal Agent Facilities in Albuquerque, New Mexico;
                     Amarillo, Texas; and Oak Ridge, Tennessee. OST's budget for Fiscal Year.2002 was
                     about $160 million.

                     At NNSA's request, the Office of Inspector General conducted the audit to determine
                     whether OST funds were used for mission essential purchases.


                     RESULTS OF AUDIT

                     In order to accomplish its mission, OST routinely purchased goods and services that were
                     appropriate to support intelligence, planning, communications, training, logistics, and
                     personnel functions. However, the audit disclosed that OST also expended funds for
                     items that were not required or did not significantly contribute to the mission of the
                     organization. Some of the expenditures were made, in part, because OST management
                     wanted to increase professionalism and "esprit de corps" within its organization. The
                     Office of Inspector General recognizes the importance of such goals. However, the audit
                     disclosed that the rationale and justification for these purchases was not always well
                     documented.

                     Expenditures

                     The audit disclosed that, during 2001 and 2002, OST made purchases of about
                     $888,000 that appeared unnecessary or excessive.
                            Uniforms and Special Clothing Items

OST spent $224,000 on uniforms and clothing even though these items were not
necessary to meet its mission and did not significantly contribute to OST's performance.

        SHistorically, OST successfully accomplished its mission with a non-uniformed
         force. Past security considerations dictated that OST agents should maintain a
          "low profile," especially when in travel status. Yet, in Fiscal Year 2002, OST
         required its agents to wear uniforms when in travel status. According to OST
         personnel, the uniforms drew too much attention and OST changed its uniform
         policy. Currently, OST agents wear uniforms only when performing non-mission
         related duties such as training, equipment maintenance, and administrative tasks.

    *    OST also purchased "special" clothing - such as underwear, gloves, leather
         bomber jackets, parkas, and overalls -which were not required to accomplish its
         mission. In accordance with a Comptroller General decision, government
         employees are generally required to present themselves for duty properly attired
         according to the requirements of their positions. Without specific justification for
         the special clothing purchases, expenditures for these items appeared unnecessary.

                                   Graduation Ceremonies

Beginning in December 2000, OST directed its employees (federal and contractor) to
attend graduation ceremonies held to recognize new officers. About 100 OST personnel
were required to travel to a training facility near Fort Smith, Arkansas, to attend each
ceremony, which generally consisted of approximately half a day of speeches and
presentations, the actual graduation, and an evening banquet. Some of those required to
attend - including property specialists, finance specialists, and a health care worker -
were not directly involved in the transportation of weapon components or special nuclear
materials.

During the 2-year period audited, OST incurred about $460,000 in travel-related costs
associated with its biannual graduation ceremonies. We specifically noted that OST
incurred at least $380,000 in aircraft expenses, including fuel and maintenance costs.
OST used fleet aircraft, which are maintained by the Department to meet the
transportation requirements of the nuclear weapons production facilities, to transport
personnel from Albuquerque, Amarillo, and Oak Ridge to Fort Smith. OST incurred
about $80,000 in additional travel costs for hotel rooms, car rentals, meals, and rental
fees for the Convention Center in Fort Smith.

                                Furnishings and Equipment

OST purchased new or upgraded furnishings and equipment when existing items could
have been used, such as:

   *    A tabletop terrain model of Fort Chaffee for about $56,000 even though a similar
        model was available for use at no cost;


                                       2
    *    Several new safes, even though replacing the locks on existing safes would have
         been less costly;

    *    Heavy-duty lockers for storing clothes and training documents rather than
         standard storage lockers; and,

    *   Russian KettleBell sets (used for weight lifting), even though the justification for
        the newer equipment provided no evidence that it was superior to the existing
        equipment.

                                   Sport Utility Vehicle

OST purchased and modified a sports utility vehicle (Hummer) at a cost of about
$118,000. It was procured to perform certain tasks during over-the-road convoys, but the
vehicle failed to perform as required. Currently, the vehicle is functioning as a pick-up
truck to transport targets, equipment, and weapons.

Management Controls

In the late 1990s, OST, then known as the Transportation Safeguards Division,
commissioned a review of its management operations. One of the review team's findings
was that OST lacked the "esprit de corps" that can promote professionalism within a
paramilitary-type organization. During our review, OST management confirmed to us
that enhancing the organization's professionalism was a factor in some of the purchases
highlighted in this report. Specifically, management believed that uniforms would
enhance OST's cohesiveness, and that requiring all employees to attend the twice-annual
graduation ceremonies would help build morale.

Although the Office of Inspector General recognizes the importance of these objectives,
we found that OST funds were not always used in support of mission essential
expenditures because:

    *   Justifications for purchases (such as for the Russian Kettle Bell sets) were
        not always clear;

    *   Basic cost-benefit comparisons were not performed, as illustrated by the
        Hummer and the procurement of the tabletop terrain model; and,
    * NNSA Headquarters was not involved in decisions regarding the
      expenditure of funds, such as attendance at the graduation ceremony.

Without the transparent rationale, which would be provided by the justifications and cost-
benefit analyses, and the oversight of expenditures by Headquarters, OST could not be
held fully accountable for its expenditures.




                                      3
  Management of Funds

  Based on the audit, we concluded that about $888,000 in OST funds could have been
  better used to meet mission-related requirements. At the time these expenditures cited in
  the report were incurred, OST did not have sufficient funds available to meet basic
  mission requirements. Specifically, in FY 2001, OST had more than $11 million in
  requirements - such as fleet maintenance and repairs - that were unfunded.


 RECOMMENDATIONS

 We recommend that the Associate Administrator for Management and Administration
 take the following steps to improve the control over expenditures at the Office of Secure
 Transportation:

     1. Require that purchase requests contain clear mission-related justifications;

     2. Require a documented rationale for procurements, including cost/benefit
        analyses as appropriate; and,

     3. Establish management controls over OST procurements at a level above or
        outside of OST Headquarters.


 MANAGEMENT REACTION

 NNSA agreed with the recommendations to justify and document rationale for purchases
 and believes it has met the intent of the recommendation to establish management
 controls at a higher level with the restructuring of elements within NNSA. Since the
 restructuring, the Office of Secure Transportation reports directly to the Deputy
 Administrator for Defense Programs.


 AUDITOR COMMENTS

 Management's comments are responsive to our recommendations. The reorganization of
 NNSA elements, specifically the Office of Secure Transportation, is consistent with the
 intent of the third audit recommendation.


SCOPE AND METHODOLOGY

 The audit was performed from October 2002 through July 2003 at the Office of Secure
 Transportation, Albuquerque, New Mexico; Transportation Safeguards Training Center,
 Fort Smith, Arkansas; and the Federal Agent Facility Central Command in Amarillo,
STexas. The fiscal years covered were 2001 and 2002.

To accomplish the audit objective, we obtained data files of general information from


                                      4
OST Headquarters; selected sample items using Audit Command Language (ACL);
evaluated the reasonableness of selected sample items; reviewed Federal, Departmental,
and OST policies and procedures; reviewed samples to determine whether expenditures
supported mission; interviewed OST officials to get clarifications on certain purchased
items; and, observed an "all-hands" meeting held in Fort Smith, Arkansas.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective.
Accordingly, the audit included reviews of procurement management activities. Because
our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. As part of our review, we also
evaluated the Department's implementation of the Government Performance and Results
Act of 1993. OST's Operating Plan for Fiscal Year 2002 did not contain specific
performance data addressing OST expenditures. However, there were objectives and
goals related to transportation mission. We did not rely on computer-processed data to
achieve our audit objective.

The Director, Policy and Internal Controls Management, Office of Business Operations
waived the exit conference.

We appreciate the cooperation of your staff throughout the audit.




                               Fre rick      Doggett
                               Assistant nspector General
                                 for Audit Services
                               Office of Inspector General


cc:   Director, Policy and Internal Controls Management, NA-66
      Team Leader, Audit Liaison Team, ME-1.1




                                     5
DOE F 1325.8
(08-93)
United States Government                                                        Department of Energy


memorandum
   DATE:         November 20, 2003

   REPLY
   TO            IG-30 (A03AL036)
   ATTN OF:

   SUBJECT:      Audit Report on "Controls Over Expenditures Within the Office of Secure
                 Transportation"

           TO:   Team Leader, Audit Liaison Team (ME-1.1).

                 Attached is the subject report with management's comments. Management
                 concurred with the finding and recommendations, but did not propose corrective
                 actions for recommendations 1 and 2. Therefore, a Management Decision is
                 required for recommendations 1 and 2. Additionally, recommendations 1 and 2 are
                 open and should be tracked in the Department's Audit Report Tracking System.

                 We appreciate your cooperation.




                                                             Frederick   . Doggett
                                                             Assistant Inspector General
                                                               for Audit Services
                                                             Office of Inspector General

                 Attachment

                 cc: Director, Policy and Internal Controls Management, NA-66
